USCA4 Appeal: 20-6338

Doc: 12

Filed: 05/27/2020

Pg: 1 of 2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6338
JESSE WILLIAMS,
Petitioner - Appellant,
v.

WELLS,
Respondent - Appellee.

Appeal from the United States District Court for the Middle District of North Carolina, at
Greensboro. Catherine C. Eagles, District Judge. (l:19-cv-00244-CCE-JLW)
Submitted: May 21, 2020

Decided: May 27, 2020

Before AGEE and QUATTLEBAUM, Circuit Judges, and TRAXLER, Senior Circuit
Judge.
Dismissed by unpublished per curiam opinion.
Jesse Williams, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 20-6338

Doc: 12

Filed: 05/27/2020

Pg:2of2

PER CURIAM:
Jesse Williams seeks to appeal the district court’s orders dismissing as untimely his
28 U.S.C. § 2254 (2018) petition and denying his Fed. R. Civ. P. 59(e) motion. With regard
to the dismissal order, the district court referred this case to a magistrate judge pursuant to
28 U.S.C. § 636(b)(1)(B) (2018). The magistrate judge recommended that relief be denied
and advised Williams that failure to file timely, specific objections to this recommendation
could waive appellate review of a district court order based upon the recommendation.
The timely filing of specific objections to a magistrate judge’s recommendation is
necessary to preserve appellate review of the substance of that recommendation when the
parties have been warned of the consequences of noncompliance. Martin v. Duffy, 858
F.3d 239, 245 (4th Cir. 2017); Wright v. Collins, 766 F.2d 841, 846-47 (4th Cir. 1985); see
also Thomas v. Am, 474 U.S. 140, 154-55 (1985). Williams has waived appellate review
of the district court’s order dismissing his § 2254 petition as untimely by failing to file
objections to the magistrate judge’s recommendation after receiving proper notice. As to
the Rule 59(e) motion, we conclude that Williams has not made “a substantial showing of
the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2) (2018).
Accordingly, we deny a certificate of appealability, deny leave to proceed in forma
pauperis, and dismiss the appeal. We dispense with oral argument because the facts and
legal contentions are adequately presented in the materials before this court and argument
would not aid the decisional process.
DISMISSED

2

t

law library. Given the complexity of the AEDPA and the ease with which uninformed
post-conviction motions and petitions in state court can result in procedural bars,1 this is
not a facially frivolous argument, assuming its factual underpinnings are correct. See
generally Barbara J. Van Arsdale, Inadequate Access to Legal Materials as Grounds for
Equitable Tolling of One-Year Limitations Period Established in Antiterrorism and
Effective Death Penalty Act for Writ ofHabeas Corpus Sought by Person in Custody
Pursuant to Judgment of State Court (28 U.S.C.A. § 2244(d)(1)), 18 A.L.R. Fed. 2d 717
(2007) (summarizing pre-Holland cases); Bryant v. Hines, No. 5:12-HC-2061-F, 2013
WL 427101, at *5 (E.D.N.C. Feb. 4, 2013) (noting that “a lack of access to legal
materials may, in certain extraordinary circumstances, warrant equitable tolling.”).
Here, however, the assertion in Mr. Williams’ motion is conclusory and is not
made under penalty of perjury. He does not state that he diligently sought legal materials
or access to a law library or describe his efforts to do so. Cf Holland v. Florida, 560
U.S. 631, 649 (2010) (stating that equitable tolling is warranted only if a petitioner

k

* \4

“shows (1) that he has been pursuing his rights diligently, and (2) that some extraordinary
circumstance stood in his way and prevented timely filing” (internal quotation marks

1/

omitted)); see also Rouse v. Lee, 339 F.3d 238, 246 (4th Cir. 2003) (en banc). He does
•

not explain how his lack of access to legal materials impeded his timely filing, and

1 See Bryan A. Stevenson, Confronting Mass Imprisonment and Restoring Fairness to
Collateral Review of Criminal Cases, 41 Harv. C.R.-C.L. L. Rev. 339, 349-51 (2006) (discussing
the ease with which complex state procedural requirements can bar later review in federal court).
2

Case l:19-cv-00244-CCE-JLW Document 18 Filed 02/20/20 Paae2of3

i.

unfamiliarity with the legal process does not constitute grounds for equitable tolling. See
United States v. Sosa, 364 F.3d 507, 512 (4th Cir. 2004); Harris v. Hutchinson, 209 F.3d
325, 330-31 (4th Cir. 2000). The notice mailed to the petitioner with the Magistrate
Judge’s recommendation explained his right to object to that recommendation, Doc. 15,
so he did not need a law library to understand that this right existed; his failure to file any
sort of objection is further indication of a lack of diligence. On this record, this is simply
a “garden variety” claim for tolling based on excusable neglect, which should be
denied. See Holland, 560 U.S. at 651-52.
This does not mean that every petitioner’s argument for equitable tolling should be
rejected without close examination, for “[i]t must never be forgotten that the writ of
habeas corpus is the precious safeguard of personal liberty and there is no higher duty
than to maintain it unimpaired.” Bowen v. Johnston, 306 U.S. 19, 26 (1939); accord
Slack v. McDaniel, 529 U.S. 473, 483 (2000) (holding that the “writ of habeas corpus
plays a vital role in protecting constitutional rights”). As the Supreme Court affirmed in
Holland, there is a strong historical basis for application of equitable principles in habeas
cases, and a “strong equitable claim” will keep the courthouse doors open to state
prisoners. See Holland, 560 U.S. at 649. Here, however, Mr. Williams’ conclusory
assertion is insufficient to support his motion to reconsider.
It is ORDERED that the motion to reconsider, Doc. 17, is DENIEDThis the 20th day of February, 2020.

UNITED STATES DISTRICT JUDGE
3

Case 1:19-cv-Q0244-CCE-JLW Document 18 Filed 02/20/20 Paae 3 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA
JESSE WILLIAMS,
Petitioner,
v.

WELLS,
Respondent.

)
)
)
)
)
)
)
)
)

1-.19CV244

ORDER AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Petitioner, a prisoner of the State of North Carolina, seeks a writ of habeas corpus
pursuant to 28 U.S.C. § 2254. (Docket Entry 1.) Respondent has filed a motion for summary
judgment (Docket Entry 5), a brief (Docket Entry 7), and an answer (Docket Entry 4).
Petitioner, in turn, filed a response (Docket Entry 10), a brief in support (Docket Entry 11), a
motion for the appointment of counsel (Docket Entry 12), and a notice (Docket Entry 13).
This matter is now ready for a ruling.
Background
In 2015, Petitioner was convicted in Guilford County Superior Court of attempted first
degree murder, assault with a deadly weapon with intent to kill inflicting serious injury, and
breaking and entering, and was sentenced to 245 to 306 months of imprisonment. (Docket
Entry 7, Ex. A at 63-65, 68.) In January of 2017, the North Carolina Court of Appeals rejected
Petitioner’s contention that the trial court had coerced a verdict, but vacated the felony
breaking and entering judgment, and remanded for resentencing. (Id., Ex. C.) Petitioner was
resentenced to 242 to 303 months of imprisonment. (Id., Ex. G.) Meanwhile, Petitioner filed

Case l:19-cv-00244-CCE-JLW Document 14 Filed 11/07/19 Page lot7

a petition for discretionary review in the North Carolina Supreme Court in February of 2017,
seeking review of the state court of appeals’ rejection of his coercion argument. (Id., Ex. H.)
The petition for discretionary review was denied on May 3, 2017. (Id., Ex. J.)
On July 24, 2018, Petitioner sent a letter, along with a motion for appropriate relief
(“MAR”), to the Clerk of the Guilford County Superior Court. (Id, Exs. K and L.) In his
letter, Petitioner explained that he enclosed his “MAR to be filed, due to the inavailability [sic]
of a notary until later ... .” (Id., Ex. K.) Petitioner explained that he was not filing an affidavit
in support of his MAR or an “Affidavit in Forma Pauperis,” but would file those the following
week. (Id.) On August 6, 2018, Petitioner filed his application to proceed informa pauperis, an
affidavit in support of his MAR, and an amendment to his MAR. (Id., Exs. M, N, O, P.) The
clerk filed stamped these documents on August 9, 2018.

(Id.)

On November 6, 2018,

Petitioner’s MAR, which the state post-conviction court found to be “filed on August 9,
2018,” was denied. (Id., Ex. Q.) On December 31, 2018, Petitioner filed a petition for a writ
of certiorari with the North Carolina Court of Appeals to review the denial of his MAR. (Id,
Ex. R.) It was denied on January 31, 2019. (Id, Ex. S.) Petitioner executed his § 2254 petition
on February 13, 2019 and he filed it in this Court on February 27, 2019. (Docket Entry 1.)
Petitioner’s Grounds
Petitioner raises four grounds for relief. Specifically, he contends: (1) the trial court
denied him access to the psychiatric files of the state’s key witness in violation of his Sixth
Amendment confrontation rights; (2) the trial court used an improper jury instruction in
violation of his due process rights; (3) he was wrongfully convicted of both attempted first
degree murder and assault with a deadly weapon with intent to kill inflicting serious injury of

2

Case l:19-cv-00244-CCE-JLW Document 14 Filed 11/07/19 Page 2 of 7

the same victim; and (4) counsel was ineffective in violation of his Sixth Amendment rights.
(Docket Entry 1, § 12, Grounds One through Four.)
Discussion
Respondent requests dismissal claiming the § 2254 petition was filed beyond the oneyear limitation period imposed by 28 U.S.C. § 2244(d)(1). (Docket Entry 7 at 8-20.) In order
to assess this argument, the Court first must determine when Petitioner’s one-year period to
file his § 2254 petition commenced. In this regard, the United States Court of Appeals for the
Fourth Circuit has explained that:
Under § 2244(d)(1)(A)-(D), the one-year limitation period begins to
runfrom the latest of several potential starting dates:
(A) the date on which the judgment became final by the conclusion of direct
review or the expiration of the timefor seeking such review,
(B) the date on which the impediment to filing an application
created by State action in violation of the Constitution or laws of
the United States is removed, if the applicant was prevented from
filing by such State action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly
recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of due
diligence.
Green v. Johnson, 515 F.3d 290, 303-04 (4th Cir. 2008) (emphasis added). Petitioner has not
invoked Subparagraphs (B) through (D) of § 2244(d)(1) and the record does not reveal any
meaningful basis for addressing them.

3

Case 1:19-cv-00244-CCE-JLW Document 14 Filed 11/07/19 Page 3 of 7

Under Subparagraph (A), Petitioner’s one-year limitation period began on “the date on
which the judgment became final by the conclusion of direct review or the expiration of the
time for seeking such review.” 28 U.S.C. § 2244(d)(1)(A). The Court must therefore ascertain
when direct review (or the time for seeking direct review) of Petitioner’s underlying
conviction(s) ended. Here, Petitioner’s convictions became final on August 1, 2017, 90 days
after the May 3, 2017 decision of the Supreme Court of North Carolina denying Petitioner’s
petition for discretionary review. (Docket Entry 7, Ex. J.) See Clay v. United States, 537 U.S.
522, 527 (2003) (holding that “[fjinality attaches when this Court affirms a conviction on the
merits on direct review or denies a petition for a writ of certiorari, or when the time for filing
a certiorari petition expires.” (internal citations omitted)); see also Sup. Ct. R. 13.1 (allowing
petitioners 90 days after highest state appellate court’s denial to file for writ of certiorari).
Petitioner’s one-year period of limitation under 28 U.S.C. § 2244(d)(1) thus
commenced on August 1, 2017 and then ran for 357 days until July 24, 2018 (the earliest date
on which the MAR could have been filed). (Docket Entry 7, Ex. L.) The limitations period
was then presumably1 statutorily tolled2 until January 31, 2019 (the day the state court of
appeals denied the petition for writ of certiorari) (Id., Ex. S) and then expired eight days later

Respondent makes a strong argument that Petitioner’s MAR was not properly filed under
state law until after the expiration of the one-year deadline and that, therefore, Petitioner is entided to
no statutory tolling whatsoever. (Docket Entry 7 at 9-15.) If Respondent is correct, Petitioner’s §
2254 petition would be more than six months late, rather than approximately one week late. (Id. at
15-17.) In either event, the instant § 2254 petition is late and it is time-barred. Given that the result
is the same under either assessment, the Court declines to definitively resolve the issue.
2 See 28 U.S.C. § 2244(d)(2); see Taylor v. Tee, 186 F.3d 557, 561 (4th Cir. 1999) (state collateral
filings generally toll the federal habeas deadline for “the entire period of state post-conviction
proceedings, from initial filing to final disposition by the highest court (whether decision on the merits,
denial of certiorari, or expiration of the period of time to seek further appellate review)”).
4

Case l:19-cv-00244-CCE-JLW Document 14 Filed 11/07/19 Page 4 of 7

on February 8, 2019, nearly a week before Petitioner executed and mailed his § 2254 petition
on February 13, 2019, and nearly three weeks before it was file-stamped in this Court on
February 27, 2019 (Docket Entry 1).

Therefore, Petitioner’s claims are time-barred.

Petitioner’s arguments to the contrary are not persuasive. First, he argues that he is
entitled to equitable tolling. (Docket Entry 10 at 3.) Equitable tolling may apply to extend
the federal habeas deadline when a petitioner “shows ‘(1) that he has been pursuing his rights
diligently, and (2) that some extraordinary circumstance stood in his way’ and prevented timely
filing.” See Holland v. Florida, 560 U.S. 631, 648 (2010) (quoting Pace v. DiGuglielmo, 544 U.S.
408, 418 (2005)). Petitioner asserts that he is entitled to equitable tolling because he lacked
access to a law library or a paralegal to assist him in preparing his § 2254 petition and so he
was denied access to the courts. (Docket Entry 10 at 3; Docket Entry 11 at 2-3.) He asserts
elsewhere that he has no legal experience. (Docket Entry 11 at 2.)
But ignorance of the law is not a basis for equitable tolling. United States v. Sosa, 364
F.3d 507, 512 (4th Cir. 2004). Moreover, the state is not constitutionally required to provide
prison libraries or paralegals, but satisfies its obligations through North Carolina Prison Legal
Services. See, e.g., Holman v. Perry, No. L15CV569, 2015 WL 12914356, at *6 (M.D.N.C. Dec.
14, 2015); Coley v. Hall, No. 1:13CV484, 2013 WL 12091638, at *3 (M.D.N.C. Oct. 29, 2013);
Burgess v. Herron, No. L11CV420, 2011 WL 5289769, at *2 (M.D.N.C. Nov. 2, 2011).3 Nor do
the potential merits of a claim impact the timeliness analysis, so any argument along these lines

3 Any effort to recast these arguments as an effort to satisfy Subparagraph (B) would also fail.
See Goldman v. Keller, No. 1:11CV258, 2012 WL 2904577, at *3 (M.D.N.C. July 16, 2012).

5

Case l:19-cv-00244-CCE-JLW Document 14 Filed 11/07/19 Page 5 of 7

must also fail. See Rouse v. Lee, 339 F.3d 238, 251-52 (4th Cir. 2003). Equitable tolling is not
warranted here.
Second, Petitioner asserts that he is entitled to a later starting date of the limitations
period because he is actually innocent of the crimes of which he was convicted. (Docket Entry
10 at 5-6.) The Supreme Court recognized in McQuiggin v. Perkins, 133 S.Ct. 1924,1928 (2013),
an actual innocence exception to the relevant time limitation. However, to establish actual
innocence, “a petitioner must show that it is more likely than not that no reasonable juror
would have found petitioner guilty beyond a reasonable doubt.” Schlup v. Delo, 513 U.S. 298,
327 (1995); see McQuiggin, 133 S.Ct. at 1935. “To be credible, such a claim requires petitioner
to support his allegations of constitutional error with new reliable evidence—whether it be
exculpatory scientific evidence, trustworthy eyewitness accounts, or critical physical
evidence—that was not presented at trial.” Schlup, 513 U.S. at 324.
Here,- Petitioner has done no more than assert in a conclusory manner that he is
innocent, which is insufficient to satisfy this exception. See Nickerson v. Lee, 971 F.2d 1125,
1136 (4th Cir. 1992) abrog’n on other grounds recog’d, Yeatts v. Angelone, 166 F.3d 255 (4th Cir.
1999). Petitioner has not proffered any new evidence regarding his case, let alone evidence
that would demonstrate that no reasonable juror could vote to find him guilty beyond a
reasonable doubt. For all these reasons, the instant § 2254 petition is time-barred.
Motion for the Appoint of Counsel
Petitioner has filed a motion for the appointment of counsel. (Docket Entry 12.)
However, he has not shown good cause for any such appointment, and none is apparent,
given that this § 2254 petition is time-barred. This motion will be denied.

6

Case l:19-cv-00244-CCE-JLW Document 14 Filed 11/07/19 Page 6 of 7

CONCLUSION
Petitioner’s grounds are time-barred.

Neither a hearing, nor discovery, nor the

appointment of counsel are warranted.
IT IS THEREFORE ORDERED that Petitioner’s motion for the appointment of
counsel (Docket Entry 12) be DENIED.
IT IS THEREFORE RECOMMENDED that Respondent’s motion for summary
judgment (Docket Entry 5) be GRANTED, that the § 2254 petition (Docket Entry 1) be
DISMISSED, and that Judgment be entered dismissing this action.

'Jjoe L. Webster
United States Magistrate Judge
November 7, 2019

7

Case 1:19-cv-00244-CCE-JLW Document 14 Filed 11/07/19 Page 7 of 7

FILED: July 6, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6338
(1:19-cv-00244-CCE-JLW)

JESSE WILLIAMS
Petitioner - Appellant
v.

WELLS
Respondent - Appellee

ORDER

The court denies the petition for rehearing.
Entered at the direction of the panel: Judge Agee, Judge Quattlebaum, and
Senior Judge Traxler.
For the Court
/s/ Patricia S. Connor, Clerk

fW-£>

FILED: June 3, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6338
(1:19-CV-00244-CCE-JLW)

JESSE WILLIAMS
Petitioner - Appellant
v.
WELLS
Respondent - Appellee

STAY OF MANDATE UNDER
FED. R. APP. P. 41(d)(1)
Under Fed. R. App. P. 41(d)(1), the timely filing of a petition for rehearing
or rehearing en banc or the timely filing of a motion to stay the mandate stays the
mandate until the court has ruled on the petition for rehearing or rehearing en banc
or motion to stay. In accordance with Rule 41(d)(1), the mandate is stayed pending
further order of this court.

/s/Patricia S. Connor, Clerk

